Semiannual Report to Congress
October 1, 2009 – March 31, 2010



                                              May 2010




   Federal Election Commission - Office of Inspector General
          999 E Street, N.W. Suite 940, Washington, D.C. 20463
October 1, 2009 - March 31, 2010




                                   i
     Office of Inspector General Semiannual Report to Congress




ii
October 1, 2009 - March 31, 2010




                                   iii
     Office of Inspector General Semiannual Report to Congress




iv
October 1, 2009 - March 31, 2010




                                   v
                           Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




vi
October 1, 2009 - March 31, 2010




                                                                Table of Contents



     Executive Summary                                                                            1
     The Federal Election Commission                                                              3
     Office of Inspector General                                                                  4
     OIG Audit Activity                                                                           5
             Audit of the Federal Election Commission’s Fiscal Year 2009 Financial Statements	    5
             Audit of the Commission’s Property Management Controls	                              6
     OIG Hotline Information                                                                      7
     OIG Investigations                                                                           8
     Additional OIG Activity                                                                      9
     Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity              11
     OIG Contacts                                                                                12
     List of Training, Meetings and Conferences                                                  13
     Reporting Requirements                                                                      15
     Table I – Inspector General Issued Reports With                                             16
                 Questioned Cost
     Table II – Inspector General Issued Reports With                                            17
                 Recommendations That Funds Be Put To Better Use
     Table III – Summary Of Audit Reports With                                                   18
                 Corrective Actions Outstanding For More Than Six Months
     OIG Strategic Plan - Fiscal Year 2005 – 2010                                                19




                                                                                                      vii
                     Office of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank
October 1, 2009 - March 31, 2010




                                                             Executive Summary



The Inspector General Act of 1978, as amended,           The contract required LSC to issue an opinion re-
states that the Inspector General is responsible for     garding whether the FEC’s financial reports and
conducting audits, inspections, investigations, and      supplemental information were fairly presented in
recommending policies and procedures that pro-           all material respects in accordance with Generally
mote economic, efficient, and effective use of agency    Accepted Accounting Principles. In addition, LSC au-
resources and programs that prevent fraud, waste,        dited internal controls and compliance with laws and
abuse and mismanagement. The IG act also requires        regulations for matters relevant to the financial state-
the Inspector General to keep the Commission and         ment audit. LSC also prepared a management letter
Congress fully and currently informed about prob-        documenting a deficiency in internal controls that
lems and deficiencies in the Commission’s opera-         was not required to be included in the public audit re-
tions and the need for corrective action.                port, but that the audit firm considered necessary to
                                                         communicate to the Commission and management.
This semiannual report includes the major accom-
plishments of the Office of Inspector General, as well   LSC identified two (2) deficiencies in internal con-
as relevant information regarding additional OIG ac-     trols; one (1) noncompliance with laws and regula-
tivities. The executive summary highlights the most      tions; and provided 17 recommendations to FEC
significant activities of the OIG. Additional details    management for the 2009 financial statement audit.
pertaining to each activity can be found in subse-       LSC expressed a clean unqualified opinion for the
quent sections of this report.                           2009 financial statements. The final audit report was
                                                         released November 13, 2009.
Audit of the FEC’s Fiscal Year 2009 Financial
Statements – OIG-09-01 was completed and re-             The Audit of the Commission’s Property
leased November, 2009 and can be found on                Management Controls – OIG-09-02 was also com-
the OIG’s Website at http://www.fec.gov/fecig/fi-        pleted and released during this reporting period and
nancial09.pdf. Under a contract monitored by the         can be found at http://www.fec.gov/fecig/property.
OIG, certified public accountants, Leon Snead &          pdf. The audit was conducted based upon an OIG
Company (LSC) performed the audit of the FEC’s           developed strategic audit plan for the agency, and
FY 2009 financial statements. The OIG was respon-        previously reported misuse of FEC property. The
sible for oversight of the financial statement audit,    audit included a review of personal communication
this includes: 1) reviewing the auditor’s approach       devices (PCDs, which include Blackberry devices
and planning of the audit; 2) evaluating the qualifi-    and cellular telephones), FEC vehicles and fleet
cations and independence of the auditors; 3) moni-       charge cards. The scope of the audit was from fiscal
toring the work of the auditors; 4) examining audit      year 2007 to 2010. Audit testing included review of
documents and reports to ensure compliance with          FEC’s policies and procedures; walkthroughs of daily
Government Auditing Standards, and OMB Bulletin          business processes; detailed analysis of PCD users’
No. 07-04, Audit Requirements for Federal Financial      voice and data activity; an employee mobile survey;
Statements, as amended; and 5) other procedures          review of detailed fleet charge card transactions; and
the OIG deems necessary to oversee the contract          a review of FEC’s standard driving patterns.
and audit.




                                                                                                               1
                                                        Office of Inspector General Semiannual Report to Congress




The OIG documented three (3) findings for PCDs
and two (2) findings for fleet vehicles and fleet
charge cards. Collectively, the OIG made 36 recom-
mendations to address internal control weaknesses
for FEC PCDs, fleet vehicles, and fleet charge cards.
If all PCD program recommendations are imple-
mented by management, the OIG projects a maxi-
mum cost savings to the agency of $49,784.

For detailed information regarding the above audits,
see the section entitled OIG Audit Activity (starting
on page 5).

Upon conclusion of the semiannual reporting pe-
riod, there are nine (9) hotline complaints open and
in various stages (pending, in progress); five (5)
new hotline complaints were opened; six (6) hot-
line complaints were closed. Currently there are six
administrative investigations being conducted. For
more information pertaining to hotline and investi-
gation topics, see the sections entitled OIG Hotline
Information and OIG Investigations (starting on
page 7 and 8 respectively).




2
October 1, 2009 - March 31, 2010




                            the federal election commission



                                       In 1975, Congress created the Federal Election
                                       Commission (FEC) to administer and enforce the
                                       Federal Election Campaign Act (FECA). The duties
                                       of the FEC, an independent regulatory agency, are to
                                       disclose campaign finance information; enforce the
                                       provisions of the law; and oversee the public funding
                                       of Presidential elections.

                                       The Commission consists of six members who are
                                       appointed by the President and confirmed by the
                                       Senate. Each member serves a six-year term, and
                                       two seats are subject to appointment every two
                                       years. By law, no more than three Commissioners
                                       can be members of the same political party,
                                       and at least four votes are required for any offi-
                                       cial Commission action. The Chairmanship of the
                                       Commission rotates among the members each year,
                                       with no member serving as Chairman more than
                                       once during his or her term. Currently the FEC has
                                       a full complement of Commissioners – Matthew
                                       S. Petersen, Chairman; Cynthia L. Bauerly, Vice
                                       Chairman; and Commissioners; Caroline C. Hunter;
                                       Donald F. McGahn II; Steven T. Walther, and Ellen L.
                                       Weintraub.




                                                                                          3
                Office of Inspector General Semiannual Report to Congress




    Office of Inspector General



           The Inspector General Act of 1978 (P.L. 100-504),
           as amended, states that the Inspector General is re-
           sponsible for: 1) conducting and supervising audits
           and investigations relating to the Federal Election
           Commission’s programs and operations; 2) de-
           tecting and preventing fraud, waste, and abuse of
           agency programs and operations while providing
           leadership and coordination; 3) recommending poli-
           cies designed to promote economy, efficiency, and
           effectiveness of the establishment; and 4) keeping
           the Commission and Congress fully and currently
           informed about problems and deficiencies in FEC
           agency programs and operations, and the need for
           corrective action.




4
October 1, 2009 - March 31, 2010




                                                             OIG Audit Activity



Audit of the Federal Election Commission’s              audited internal controls and compliance with laws
Fiscal Year 2009 Financial Statements                   and regulations for matters relevant to the financial
                                                        statement audit. LSC also prepared a management
Assignment Number: OIG – 09-01                          letter documenting a deficiency in internal controls
                                                        that was not required to be included in the pub-
Status:	 Released November, 2009                        lic audit report, but that the audit firm considered
                                                        necessary to communicate to the Commission and
http://www.fec.gov/fecig/financial09.pdf                management.

The Chief Financial Officers Act of 1990 (Public Law    The audit was completed in four phases: planning;
101-576, commonly referred to as the “CFO Act”),        review and evaluation; testing; and reporting and
as amended, requires the FEC Office of Inspector        work paper delivery. Throughout these audit phases,
General or an independent external auditor, as          the OIG held bi-weekly status meetings with LSC
determined by the Inspector General, to audit the       and management to keep abreast of audit issues or
agency financial statements. Under a contract moni-     concerns. In addition, the OIG coordinated and at-
tored by the OIG, Leon Snead & Company (LSC),           tended meetings with LSC and the FEC’s Chairman
an independent certified public accounting and man-     and Vice Chairman to discuss the audit objectives
agement consulting firm was awarded a five year         and progress of the audit. The OIG also reviewed
contract to audit the FEC’s financial statements for    all deliverables to include the notice of findings and
beginning in FY 2009.                                   recommendations, audit work papers, and the draft
                                                        audit reports for the audit.
LSC was contracted to conduct the financial
statement audit following Generally Accepted            Upon completion of the final audit phase, LSC iden-
Government Auditing Standards (GAGAS) and OMB           tified two (2) deficiencies in internal controls; one
Bulletin No. 07-04, Audit Requirements for Federal      (1) noncompliance with laws and regulations; and
Financial Statements, as revised. The OIG was re-       provided seventeen (17) recommendations to FEC
sponsible for oversight of the financial statement      management for the 2009 financial statement audit.
audit, which included: 1) reviewing the auditors’ ap-   LSC expressed a clean unqualified opinion for the
proach and planning of the audit; 2) evaluating the     2009 financial statements. The final audit report was
qualifications and independence of the auditors;        released November 13, 2009.
3) monitoring the work of the auditors; 4) examin-
ing audit documents and reports to ensure compli-
ance with GAGAS, and OMB Bulletin No. 07-04; and
5) other procedures the OIG deemed necessary to
oversee the contract and audit.

The contract required LSC to issue an opinion re-
garding whether the FEC’s financial reports and
supplemental information were fairly presented in
all material respects in accordance with Generally
Accepted Accounting Principles. In addition, LSC



                                                                                                                5
                                                         Office of Inspector General Semiannual Report to Congress




Audit of the Commission’s Property
Management Controls
Assignment Number: OIG – 09-02
Status:	 Released March, 2010
http://www.fec.gov/fecig/property.pdf
The OIG completed the Audit of the Commission’s
Property Management Controls and released the
final report on March 31, 2010. The OIG conducted
the audit based upon an OIG developed strategic
audit plan for the agency, and previously reported
misuse of FEC property. The scope of the audit was
from fiscal year 2007 to 2010 and the audit was per-
formed in accordance with generally accepted gov-
ernment auditing standards.

The audit included a review of personal communica-
tion devices (PCDs, which include Blackberry devic-
es and cellular telephones), FEC vehicles and fleet
charge cards. Audit fieldwork was conducted be-
tween September 1, 2009 and January 22, 2010 and
testing included review of FEC’s policies and pro-
cedures; an employee mobile device survey; review
of detailed data for PCD activity; and review of fleet
charge card transactions. Throughout the audit, the
OIG auditors attended meetings with FEC manage-
ment to discuss preliminary issues prior to issuing
the OIG’s final findings and recommendations.

The OIG’s audit testing identified that the FEC
needs to improve its policies and procedures gov-
erning PCDs, efficiently and effectively monitor the
PCD program, and maintain adequate records to
properly track and manage PCDs. Audit testing also
showed there are insufficient management controls
in place to detect or prevent employee fraud, waste
and abuse of agency fleet vehicles and fleet charge
cards. The OIG documented three (3) findings for
PCDs and two (2) findings for fleet vehicles and fleet
charge cards. Collectively, the OIG made 36 recom-
mendations to address internal control weaknesses
for FEC PCDs, fleet vehicles, and fleet charge cards.
If all PCD program recommendations are imple-
mented by management, the OIG projects a maxi-
mum cost savings to the agency of $49,784.




6
October 1, 2009 - March 31, 2010




                                              OIG hotline Information:



The Office of Inspector General (OIG) established a        As this reporting period concludes, the OIG has
hotline to enable employees and others to have di-         nine (9) open hotline complaints in various stages
rect and confidential contact with the OIG. The OIG        (pending or in progress); this includes one hotline
receives complaints through various means such             complaint resulting from an on-going criminal inves-
as U.S. mail, telephone, e-mail, fax, inter-office mail,   tigation; five (5) new hotline complaints were opened
and personal visits to the OIG. Once a hotline (HL)        and six (6) hotline complaints were closed during
complaint has been received, a preliminary inquiry         this semiannual reporting period.
is conducted. When an evaluation has been com-
pleted, the hotline complaint may be closed with no
further action taken, referred to management or an-
other agency or an investigation may be initiated.

The OIG recently revised its policy for reviewing and
evaluating hotline complaints. The policy was de-
veloped to guide the OIG’s effort to ensure consis-
tency and fairness in its case initiation decisions;
and serves as a guide for the OIG to manage the
increased case load in the number of hotline com-
plaints. The policy defines “hotline complaints” as
allegations or referrals of fraud, waste, abuse, mis-
management, and misconduct involving FEC em-
ployees/contractors, programs, operations, property,
or funds.

The OIG considers many factors when evaluating
whether to open an investigation based on a hotline
complaint, and acknowledges that every allegation
or complaint received by the OIG cannot be investi-
gated. The policy includes evaluation considerations,
such as the merits of an allegation, the availability of
evidence; and the existing priorities, commitments,
and resources of the OIG. Under this revised policy,
hotline complaints shall be classified as either high
or low priority complaints. High priority complaints
are investigated and low priority complaints are ei-
ther closed with no action, or referred to an appro-
priate official for possible further review. Under this
revised policy, hotline evaluation decisions are made
by the Chief Investigator, with concurrence from the
Deputy IG.



                                                                                                              7
         Office of Inspector General Semiannual Report to Congress




      OIG investigations:



    OIG investigations seek out facts related to allega-
    tions of wrongdoing. OIG investigations may ad-
    dress administrative, civil, and criminal violations
    of laws and regulations. The subject of an OIG in-
    vestigation can be any agency employee, an FEC
    contractor, consultant, or a person or entity involved
    in alleged wrongdoing affecting FEC programs and
    operations. The OIG conducts a detailed examina-
    tion or inquiry into issues brought to our attention by
    various sources. At the conclusion of an OIG investi-
    gation, the OIG prepares a report that sets forth the
    allegations and an objective description of the facts
    developed during the investigation.

    As of the end of the semiannual reporting period,
    there are six (6) open investigations – all are ad-
    ministrative investigations. During this semiannual
    period, two (2) reports of investigation were issued
    to the Commission. In one of the investigations, the
    FEC reached a settlement agreement with a con-
    tractor in connection with an OIG investigation.




8
October 1, 2009 - March 31, 2010




                                                Additional OIG Activity:



Besides conducting audits, inspections, and investi-        hour bi-weekly work requirement, for full-time
gations, the OIG performs, and is involved in an ar-        employees, to be scheduled for less than 10
ray of additional projects and activities. As required      workdays. The OIG recognizes that the use of
by the Inspector General Act of 1978, as amend-             a 4/10 compressed work schedule has the po-
ed, all legislation compiled by the Commission’s            tential to provide employees with more flexibility
Congressional Affairs office is reviewed by the             in their work lives, enhance employees’ work/
Inspector General. The Inspector General also re-           life balance, and improve employee morale and
views and provides comments, when appropriate,              retention, while maintaining productivity levels
on legislation provided by the Council of Inspectors        and accomplishing the OIG’s mission.
General on Integrity and Efficiency (CIGIE)              •• The OIG completed its annual records man-
Legislative Committee. In addition, the Inspector           agement plan this period. The Federal Records
General routinely reads all Commission agenda               Act, which governs agencies’ records manage-
items. Listed below are examples of the OIG’s addi-         ment responsibilities, states records include all
tional activities:                                          books, papers, maps, photographs, machine-
                                                            readable materials, or other documentary ma-
  •• The OIG began pre-audit planning prepa-
                                                            terials, regardless of physical form or charac-
     ration with the OIG’s audit contractor, Leon
                                                            teristics, made or received by an agency of the
     Snead & Company to conduct the FEC’s FY
                                                            United States Government under Federal law
     2010 Financial Statement Audit (OIG-10-01).
                                                            or in connection with the transaction of public
     The logistics request form has been provided
                                                            business. Each record series must be sched-
     to LSC. The OIG contacted the Information
                                                            uled for appropriate disposition. The OIG re-
     Technology Division (ITD) to discuss plans to
                                                            ceived an approved records disposition sched-
     provide laptop and desk top computers for LSC
                                                            ule/general records schedule. Utilizing the
     staff. In addition, the entrance conference and
                                                            records disposition schedule, the OIG began
     financial statement status meetings have been
                                                            preparing our files for destruction and/or ship-
     scheduled.
                                                            ment to the Federal Records Center/National
  •• With assistance from the FEC’s contracting of-         Archives Records Administration.
     fice, the OIG worked on issuing a request for in-
                                                         •• The OIG participated in an Enterprise Content
     formation (RFI) to prospective audit contractors
                                                            Management (ECM) review of the FEC. The
     to perform audit services in 2010 for the OIG.
                                                            OIG assisted the contractor in understand-
     Specifically, the RFI sought responses from
                                                            ing FEC’s content management requirements
     firms that have experience performing audit
                                                            and associated business processes includ-
     follow-up reviews for procurement and contract
                                                            ing the needs of all FEC Business Offices;
     management, and privacy and data protection.
                                                            Requirements surrounding legal/discovery
  •• The OIG worked on the implementation of a              activities; Records Management and other
     4/10 pilot schedule. The OIG pilot program is          Statutory/Regulatory requirements. A planning
     based on a similar pilot program at the FEC.           session was held to discuss OIG processes
     The OIG 4/10 Compressed Work Schedule Pilot            and business needs. A needs assessment
     program is an initiative allowing an eighty (80)       spreadsheet was created describing hardware,



                                                                                                            9
                                                         Office of Inspector General Semiannual Report to Congress




     software, and data storage needs of the OIG.
     The information provided allowed the contractor
     to document the process flow for OIG audit and
     investigative activities.
 •• During this quarter the IG staff received new
    OIG credentials. The IG Counsel created an
    OIG Credentials Policy. The policy was created
    to provide proper guidance regarding the issu-
    ance, use, display, control, and accountability of
    official federal Inspector’s General common cre-
    dentials. The IG, or designee, shall approve and
    issue all OIG credentials, those who receive a
    credential must sign and date a credential re-
    ceipt acknowledging possession.
 •• The OIG conducted several new employee ori-
    entations (NEO) during this reporting period.
    The NEO is designed to give new employees
    an overall look at the Commission’s core divi-
    sions. The OIG introduces new employees to
    the office and details the responsibilities of the
    OIG and the employee’s responsibilities as a
    federal worker.

 •• The OIG Hotline poster was recreated dur-
    ing this reporting cycle; the OIG upgraded the
    hotline poster to give it a more structured and
    professional appearance. The Hotline posters
    will be displayed throughout the Commission in
    an effort to encourage FEC employees, as well
    as Agency contractors, to report all allegations
    of fraud, waste, abuse, and/or mismanagement
    to the OIG.




10
October 1, 2009 - March 31, 2010




        Council of the Inspectors General on
      Integrity and Efficiency (cigie) Activity:


                                   The Inspector General has continued to be very in-
                                   volved in CIGIE. She is a member of the Executive
                                   Council, which is composed of the Chair, Vice Chair,
                                   the past Vice Chair of the PCIE, all Committee
                                   Chairmen and one member appointed by the Chair.
                                   The Executive Council provides guidance on CIGIE
                                   initiated projects, the operating plans for each fiscal
                                   year, and the standing up of the CIGIE and the train-
                                   ing academies. The Council meets monthly to dis-
                                   cuss issues that will affect CIGIE.

                                   The Inspector General also Co-Chairs the Inspector
                                   General Candidate Recommendation Panel with the
                                   Justice Department Inspector General. This panel is
                                   charged with making recommendations of qualified
                                   candidates to the White House and heads of vari-
                                   ous federal agencies to be considered for vacant
                                   Inspector General positions.

                                   The Inspector General is Vice Chair of the
                                   Professional Development Committee. This commit-
                                   tee is charged with ensuring that there is strong, rel-
                                   evant training for the Inspector General community.
                                   Part of the charge of the committee, is to establish
                                   training academies for each of the professional des-
                                   ignations in the IG community. This is an on-going
                                   project.




                                                                                        11
                                                                Office of Inspector General Semiannual Report to Congress




                                                                             OIG Contacts


The table below indicates the total amount of contacts received by the Office of Inspector General for the past
six months – October 1, 2009 through March 31, 2010.

These contacts were made through various sources such as telephone calls, e-mails, faxes, U.S. mail, and per-
sonal visits to the OIG.




                   Total            OIG         No Action       Forwarded
                  Contacts         Action       Necessary       for Action

                     200              36           146               18




12
October 1, 2009 - March 31, 2010




                                             List of Training, Meetings
                                                       and Conferences

The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
Inspector General and/or the OIG staff for the period October 1, 2009 – March 31, 2010.



                       Host/Sponsor                                            Topic/Subject


                                                           Monthly Meetings
                                                           Executive Council Meetings
                                                           Professional Development Committee Meetings
                                                  CIGIE    Introductory Auditor Training
                                                           Annual Leadership Training Conference
                                                           Financial Statement Audit Network (FSAN) Meetings
                                                           Conducting Peer Reviews of the Audit Organizations of
                                                           Federal Offices of Inspectors General

      Council of Counsels to the Inspectors General        Monthly CCIG Meetings

       Assistant Inspector General for Investigations      AIGI Fall 2009 Annual Conference
                                                           AIGI Quarterly Meetings
              Association of Inspectors General (AIG)      AIG Fall 2009 Conference
                       Federal Audit Executive Council     FAEC Conference

              Federal Dispute Resolution Conference        FDR Conference

             Association of Certified Fraud Examiners      ACFE Conference
                                                           Procurement and Grant Fraud

             Association of Government Accountants         Fifth Annual Performance Management Conference

                                                           Writing Women back into History - Annual Summit &
                     Executive Women in Government         Training Conference

                                   Management Concepts     Business Writing Training
                                                           Appropriations Law Seminar

                            Lincoln Leadership Institute   Transformational Journey from Gettysburg

                                                DC Bar     2010 White Collar Crime Conference

                                                                                                           (cont.)




                                                                                                               13
                                            Office of Inspector General Semiannual Report to Congress




     Host/Sponsor                                           Topic/Subject

                       Capitol.Net   Effective Executive Briefing

                                     Upward Mobility For Federal Employees Training
         Human Resources Institute   Introduction to Project Management Training

            USDA Graduate School     Listening and Memory Development Training


               Scottsdale Seminars   Business Writing Solutions

                                     Weekly Directors’ Meetings
                                     Continuity of Operation Plan (COOP) Meeting
                                     Occupational Emergency Planning Team Meeting
                                     2009 Computer Security Awareness Training
                                     FEC Hiring De-Mystified: Unlocking the Black-box of
                                     Hiring
                                     OIG Bi-weekly Staff Meetings
       Federal Election Commission   Administrative Liaison Group Meeting
                                     Leadership Development Speakers Series Network
                                     Meeting
                                     Communication Skills For Successful Management
                                     Training (Skillsoft)
                                     Leadership and the Knowledge Worker Training
                                     (Skillsoft)
                                     Taking on a Management Role Training (Skillsoft)
                                     Preparing for Change Training (Skillsoft)




14
October 1, 2009 - March 31, 2010




                                                      Reporting Requirements


      Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
      General Act Amendments of 1988 are listed below:

     IG Act                        Description                                                                Page


    Section 4(a)(2)                Review of Legislation                                                        9

    Section 5(a)(1)                Significant Problems, Abuses, and Deficiencies                             None

    Section 5(a)(2)                Recommendations with Respect to Significant Problems, Abuses,              None
                                   and Deficiencies

    Section 5(a)(3)                Recommendations Included in Previous Reports on Which Corrective            18
                                   Action Has Not Been Completed (Table III)

    Section 5(a)(4)                Matters Referred to Prosecuting Authorities                                None

    Section 5(a)(5)                Summary of Instances Where Information was Refused                         None

    Section 5(a)(7)                Summary of Significant Reports                                               5

    Section 5(a)(8)                Questioned and Unsupported Costs (Table I)                                  16

    Section 5(a)(9)                Recommendations that Funds be put to Better Use (Table II)                  17

    Section 5(a)(10)               Summary of Audit Reports issued before the start of the Reporting Period    N/A
                                   for which no Management Decision has been made

    Section 5(a)(11)               Significant revised Management Decisions                                    N/A

    Section 5(a)(12)               Management Decisions with which the Inspector General is                   None
                                   in Disagreement




                                                                                                                     15
                                                        Office of Inspector General Semiannual Report to Congress




                                                                                          TABLE I


INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS


(DOLLAR VALUE IN THOUSANDS)




                                                                    Questioned            Unsupported
                                                     Number
                                                                        Costs                 Costs


A. For which no management decision has been made      0                  0                       0
   by commencement of the reporting period


B. Which were issued during the reporting period       0                  0                       0


     Sub-Totals (A&B)                                  0                  0                      0


C. For which a management decision was made during     0                  0                      0
   the reporting period


     (i) Dollar value of disallowed costs              0                  0                      0


     (ii) Dollar value of costs not disallowed         0                  0                      0


D. For which no management decision has been made      0                  0                      0
   by the end of the reporting period

E. Reports for which no management decision was        0                  0                      0
   made within six months of issuance




16
October 1, 2009 - March 31, 2010




                                                                             TABLE II


INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE



                                                                             Dollar Value
                                                                    Number
                                                                             (In Thousands)

  A. For which no management decision has been made by the            0            0
     commencement of the reporting period

  B. Which were issued during the reporting period                    0            0

  C. For which a management decision was made during the re-          0            0
     porting period
     (i) dollar value of recommendations were agreed to by            0            0
         management

         based on proposed management action                          0            0

         based on proposed legislative action                         0            0

     (ii) dollar value of recommendations that were not agreed to     0            0
          by management
  D. For which no management decision has been made by the            0            0
     end of the reporting period
  E. Reports for which no management decision was made within         0            0
     six months of issuance




                                                                                              17
                                                             Office of Inspector General Semiannual Report to Congress




                                                                                             TABLE III



SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR MORE
THAN SIX MONTHS

                                                                       Recommendations
                                          Report
            Report Title                                   Issue Date       Number          Closed           Open
                                          Number

     Audit of the FEC’s Employee         OIG-06-01           02/07            {21}             0            {21}*
     Transit Benefit Program

     2007 Performance Audit of           OIG-07-02           12/07              7              0               7
     Privacy and Data Protection

     Audit of the FEC’s FY 2008          OIG-08-01           11/08             19              13              6
     Financial Statements

     Audit Follow-up Review of the
     FEC’s Employee Transit Benefit      OIG-08-03           07/09             51              0              51
     Program




* These recommendations are now included in the Audit Follow-up Review of the FEC’s Employee Transit Benefit
Program (OIG-08-03) and will no longer be reported separately.




18
October 1, 2009 - March 31, 2010



        FEC/OIG Strategic Plan - Fiscal Years 2005 – 2010




                    __________________________________________________________________________________
                    Semiannual Report to Congress      Page 23                 October 1, 2009 – March 31, 2010




                                                                                                                  19
                         Federal Election Commission
                           Office of Inspector General




Fraud Hotline
202-694-1015
                        or toll free at 1-800-424-9530 (press 0; then dial 1015)
                         Fax us at 202-501-8134 or e-mail us at oig@fec.gov
             Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463

Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to fraud, waste,
abuse, and mismanagement of agency programs and operations. Individuals who contact the OIG can remain
anonymous. However, persons who report allegations are encouraged to provide their contact information in the event
additional questions arise as the OIG evaluates the allegations. Allegations with limited details or merit may be held
in abeyance until further specific details are reported or obtained. Pursuant to the Inspector General Act of 1978, as
amended, the Inspector General will not disclose the identity of an individual who provides information without the
consent of that individual, unless the Inspector General determines that such disclosure is unavoidable during the
course of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                                    Together we can make a difference.
